                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: A12060044                                                                    Page 1 of 1



                 We received an allegation that the Subject1 submitted an NSF proposaf the majority of
         which contained copied text. NSF funded the proposal. The Subject's response to our inquiry
         placed responsibility for the copied text on a foreign collaborator. We subsequently interviewed
         the NSF Program Director, reviewed the Program Announcement requirements, and referred the
         matter to the University3 as an inquiry. The University's inquiry and limited investigation
         concluded that the Subject was not responsible for the copied text and thus did not commit
         plagiarism.

                 We found the University's conclusion accurate and complete relative to its interests.
         However, given our mission to protect the NSF and the federal interest, we initiated our own
         investigation. Our investigation concluded, based on a preponderance of the evidence, that the
         Subject recklessly committed plagiarism in submitting, under his own name, material authored
         by a foreign collaborator who was previously unknown to him, without reasonably reviewing the
         document. We concluded the act constituted a significant departure from accepted practices
         within his research community.

                 We recommended actions to be taken to protect the federal interest. The Senior Advisor
         to the Director concurred with our recommendations.

                Additionally, we informed the University of our concern regarding its receipt ofthe
         award, and the University chose to reimburse the award to NSF, in the amount of$50,000.

                This memo, the Report of Investigation, and the letter from the Senior Advisor to the
         Director to the Subject constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
SENSITIVE                                                                              SENSITIVE




      National Science Foundation
        Office of Inspector General




                   Report of Investigation
                   Case Number 12060044
                        September 24, 2013

                        This Report oflnvestigation is provided to you
                                  FOR OFFICIAL USE ONLY.
 It contains protected person~! information, the unauthorized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. Tills report may be further
 disclosed within NSF only to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552a Please take appropriate precautions handling this report of investigation.

                                                                              NSF OIG Form 22b (1/13)
SENSITIVE                                                                          SENSIID'E



                                  Executive Summary

Allegation:     Plagiarism.

OIG Inquiry:    OIG identified seven sources from which approxima~ely 154lines and 40
                embedded references in one funded NSF ProposaL OIG referred inquiry of
                the matter to the Subject's University.

University
Inquiry:        The University concluded the Subject did not commit plagiarism.

OIG Investigation

                •   The Act: Subject submitted a proposal to NSF containing 154lines and
                    40 embedded references copied from seven sources in one NSF proposal.
                    The proposal was largely written by a collaborator previously unknown
                    to the Subject.
                •   Intent: Subject acted recklessly.
                •   Standard of Proof: A preponderance of evidence supports the
                    conclusion that Subject recklessly committed plagiarism.
                •   Significant Departure: Subject's plagiarism represents a significant
                    departure from accepted practices.
                •   Pattern: None.

OIG
Recommends:
                •   Make a fmding of research misconduct against Subject
                •   Send Subject a letter of reprimand.
                •   Require certifications from Subject for a period of one year.
                •   Require assurances from Subject for a period of one year.
                •   Require completion of a responsible conduct of research training program
                    within one year.




                                            1
SENSITIVE                                                                                   SENSITIVE


                                                 OIG's Inguiry

        OIG conducted an inquiry into an allegation of plagiarism within a funded NSF
collaborative proposal (Proposal). 1 Our review identified 163 lines of text and 41 mit of 45
cited references copied from eight sources. 2 In total, nine out of 12 pages were entirely
plagiarized: the entire backgroll!ld and "Statement of Scientific or Technical Problem" sections,
as well as the majority of the "ProjectDescription" and "Detailed Plan ofWor:k" sections.

       We contacted the PI (Subject) 3 about the allegation. 4 He responded that his collaborator,
an Egyptian scientist (ES) 5, suggested they sul;>mit a collaborative proposal. 6 He said the ES
"prepared the principal portion of the proposal, with a pending portion to be provided by me." 7
The Subject said he "judged [the draft proposal he received] to be meritorious [and] hence
decided to participate as a collaborator." 8 He said "I was not aware of plagiarism U!ltil now. Ifi
had known about the copied texts, I would not have participated in the proposal."9

        To support his contention that the ES wrote the majority of the Proposal, the Subject
provided a copy of the draft proposal he received from the ES 10 and a copy of the supplemented
proposal he provided to the ES containingthe Subject's contribution. 11 The Subject said he
authored the section concerning the U.S. group's work, the second package (W2) section,
attributed to Reference 40, our Source 5. 12 He noted W2 "is a technical procedure that could
appear in anyliterature." 13 Although acknowledging he did not demarcate the text, he said
"Given the explicit attribution for the procedures, though without quotations marks, I cannot be
adjudged as plagiarism under strict definition of the tenn." 14

       With regard to the other source documents, the Subject noted that ES co-authored
Source 8. The Subject concluded:

                  While I admit that it was my oversight not examining with care the
                  major portions of the proposal written by [the ES] since I did not
                  know him professionally and personally, my input to the proposal
                  was rather limited to a specific section. I hasten to add that I should




A                                                                 funds were expended.
2
  Tab 2.
3. . . . . . . . . . . . . . . . . . . . . . . . . ..
4
    Tab 3.
5. . . . . . . . . . . . . . . . . . . ..
6
  Tab 4, Response Letter, pg 1. All quotations here in are sic.
7
  Tab 4, Response Letter, pg 1.
8
  Tab 4, Response Letter, pg 1.
9
  Tab 4, Response Letter, pg 2.
10
   Tab 4,                                           doc.
11
   Tab 4,                                                            oc.
12
   Tab 4, Response Letter, pg 1.
13
   Tab 4, Response Letter, pg 1.
14
   Tab 4, Response Letter, pg 2.


                                                           2
SENSITIVE                                                                                                                                                                                SENSITIVE



                                                    not be excused for willingly collaborating with someone whom I
                                                    do not know. 15

       We reviewed the Subject's response and removed Source 8 from analysis. We
confirmed that, though Reference40 was our Source 5, the copied text was not adequately cited.
We also noted that the draft proposals the Subject provided were undated, and therefore needed
additional information to conclusively corroborate his statements.

       As part of our normal practice, we examined two other NSF proposals the Subject
submitted as PI. 16 We determined that the other proposals did not warrant further review.
Consequently, our inquiry focused solely on the now 154lines and 40 embedded references
ron.'l'"'to;,o.~     f",...,....,.,..........   C'J0.'1:TPn   C"f"\11rr>-.t:3.C" in      thP          P-rnMnC"".:ll               ~c:   -ilhH:<i-r'.:lltP.rl hPlrvn.T"'
VV_t'.LV1...o. ..L.l._V,L.L..i._ ...:;......., 'I "'-"..LI.. LJVL4..L'-'-LJ1 .l..l..l.   I..L..i...., ..&. .LV_f!'V'-'"-t...l.'   ~     .L.l..l.l;..;.l.,)i..i..~i,.oi..l.'-',..;.
                                                                                                                                                             U.._...LV i'i           ~




                                                                                      Source                                           Proposal
                                                                                                                                      (Awarded)
                                                                               1 (article)                                 35 lines; 11 embedded references
                                                                               2 (article)                                 28 lines; 19 embedded references
                                                                               3 (article)                                  22 lines; 3 embedded references
                                                                               4 (article)                                  14lines; 2 embedded references
                                                                               5 (article)                                   11 lines; .1 embedded reference
                                                                               6 (article)                                                           2llines
                                                                               7 (article)                                  23 lines; 4 embedded references
                                                                               TOTAL                                     I 54 lines; 40 embedded references

        Because the copied text constituted nearly the entire Proposal, we interviewed the
Proposal's Program Director (PD) 17 to determine whether the copied text was material to NSF's
funding decision. The PD unequivocally said the copied text was material to her decision,
noting that the Proposal did not require external review because it requested less than $50,000.
Specifically, she stated:

                                                    My overall assessment is that there is very little original material in
                                                    [the Subject]'s NSF proposal. Although the proposal is fully
                                                    referenced in terms of secondary references, the omission of
                                                    primary references is of significant concern. Moreover, there is
                                                    nothing about the presentation of the text that has been derived
                                                    from primary references (e.g., quotes, italics, offsets) to indicate
                                                    that the PI is using verbatim language. Had I been aware of the
                                                    extent to which the intellectual content, the rationale, and the
                                                    proposed methodologies were derived from unattributed sources, I
                                                                                          18
                                                    would not have funded this proposal.

The PD added that she expects such proposals to result from collaboration between the U.S. and
non-U.S. collaborators, and that, given the Proposal was in the Subject's area of study, he

                                                                         2.


18
     PD's statement available upon request.


                                                                                                                                             3
SENSITIVE                                                                                              SENSITIVE


should have known the Proposal contained plagiarism, or at least meticulously reviewed the
draft Proposal sent by the ES. She said the Subject and his University 19 were liable for the
submitted content.

        Our review of the U.S.-Egypt Program Announcement (Announcement) confirmed the
PD's statements. It stated that proposals "should be jointly developed by interested experts of
both countries and reflect a true intellectual collaboration. Ideally, the Egyptian and U.S.
participants will already be familiar with each other, at a minimum, or already enjoy a working
relationship."20 The Announcement also contained the following explicit statement about
plagiarism:

                  Plagiarism is 'the appropriation of another person's ideas,
                  processes, results or words without givmg appropriate credit.' A
                  proposal that is shown to include plagiarism would not be
                  considered for support, and the submitting scientist(s) may be
                  subject to further adverse actions through the US and Egyptian
                  Government agencies and/or their institutions. 21

        Based on the Subject's response, the PD's statements, and the Announcement, we
referred the matter to the University as an inquiry, emphasizing its need to assess the
truthfulness of the Subject's inquiry response. 22


                             University Inquiry and Limited Investigation

        The University accepted the referral and convened a Committee, whose initial inquiry
determined "that substantial components of the proposal were deliberately plagiarized" but that
the inquiry alone was insufficient to "rule out [the Subject]'s involvement in this deliberate
plagiarism."23 Per its policy,24 the University moved to a limited investigation, which resulted
in a Report with attachments. 25                                                                 ·


       During the limited investigation, the Committee obtained and reviewed the Subject's
email correspondence withES, including those containing the previously undated drafts?6 It
"determined that while [the Subject] participated on a proposal to NSF that contained large
sections of plagiarized material, he himself did not commit the plagiarism." 27 Specifically, the
Report stated:



19······
20
21
22
23
24
   Tab 4, prog_US-Egypt. pdf, pg 6.
   Tab 4, prog_US-Egypt.pdf, pg 15.
   Tab 5.
   Tab 6.
   Tab 7.
25
   Tab 8.
26
   Tab 9. There is a gap in the email record, due to a server replacement and a University directive asking that
faculty save emails elsewhere during that period. The gap corresponds to the period when unfinished drafts were
exchanged.                                                                                         ·
27
   Tab 10, pg 1.


                                                         4
SENSITIVE                                                                                                                                                                                                        SENSITIVE




                  1) The committee fmds that significant portions of the proposal
                     were plagiarized.
                  2) The committee concludes that [the Subject] contributed one
                     section to the proposal and that this section was not
                     plagiarized, although we believe that he could have chosen a
                     different way of describing experimental details that would
                     more clearly connect to the reference from which they were
                     taken and which was provided in the proposal.
                  3) The committee is satisfied that [the Subject] has provided
                     strong evidence for his version of events.
                  A\    ThA             11111'tTPT"C'~hr           '("Hill          nr.+ "ha. ln;tt~tlnrr               fi11+hPr                  ~11't7P.C'f;Cr'::lt1nn nf                   rtl,P.
                  -,}   .J...i..l.'V'   u..i..l..l.l''V'.i.W.LLJ    Y'r/.l...L.l.        UV J....l_llL.l~A.-11-.U.AfS
                                                                                    .l...i.Vi,..                        .l..L+,l.i...Li.-'V'.l.   .U..l.'i''V'o.JL.-.LF,IA.-L.LV.l..i.   V.I..~   L.o..l.l.'-'



                     Subject] on this issue at this time.
                  5) The university stands ready to cooperate fully with the NSF
                     should, unlike the committee, you conclude that an
                     investigation is warranted. 28

The University pledged it "will undertake to educate and inform faculty about their
responsibility to carefully review proposals they participate in, particularly those that are in
collaboration with investigators with whom they are not familiar or with whom they have had
                                                                    29
little interaction in the past, as was the case in this incident. "


                                                                     OIG's Independent Review

        We reviewed the Report and found the University's conclusions accurate and complete
relative to its interests. We also found that it produced an acceptable evidentiary record. The
University's investigation looked into the question of whether the Subject himself authored the
plagiarism in the Proposal and found that he had not. We agree with this assessment. However,
given our mission to protect the Federal interest, we initiated our own investigation into the
awarding of U.S. funds to a U.S. institution based on an almost entirely plagiarized Proposal a
U.S. PI submitted.


                                                                                    OIG's Investigation

        Were-reviewed the Announcement under which the Subject submitted his Proposal,
focusing on its statement that proposals "should be jointly devel()ped by interested experts of
both countries and reflect a true intellectual collaboration. Ideally, the Egyptian and U.S.
participant~ will already be familiar with each other, at a minimum, or already enjoy a working
relationship." 30 We determined the Subject did not adhere to these guidelines: He did not
jointly develop the project with the ES; the Proposal did not reflect a true intellectual
collaboration; nor was he already familiar with the ES. Instead, the Subject himself

28
   Tab 8, pg 4.
29
   Tab 8, pg 4.
30
   Tab 4, prog_US-Egypt. pdf, pg 6.


                                                                                                      5
SENSITIVE                                                                                                SENSITIVE


acknowledged that he blindly accepted the product of a non-native English speaker whom he
did not know and submitted it to NSF without any sort of meaningful review. He did this
despite prevalent grammatical, spelling, and punctuation errors contained in ES's emails to
him31 and despite, as the PD'sasserted, the Subject's familiarity with the area of science. In
doing so, the Subject's lack of due diligence caused his own culpability for the act.

        We reviewed two proposals the Subject submitted following initiation of our inquiry and
did not identify copied text. 32 However, our review of the Proposal's fmal report, which the
Subject submitted six months after receiving our initial inquiry letter, identified 53 lines and 16
embedded references copied from four sources,33 suggesting that, even after our notification, the
Subject did not carefully review material he submitted to NSF related to the Proposal. We
informed the Subject of our investigation, provided him with a copy of the Report and
attachments on which to co'mrnent, asked him to address the new plagiarism allegation and
additional questions, and requested he provide a current CV. 34

        In his response, the Subject said "I firmly dispute the allegation that the final report
submitted after the inquiry contains copied text."35 He said the ES authored the sections
containing plagiarism, and that he submitted those sections, prior to receiving our inquiry letter,
in a previous annual report. He provided corroboratingdocuments36 and said that, since our
inquiry letter, he is extra cautious when reviewing documents bearing his name. He provided
his CV and asserted that he knows plagiarism is misconduct, did not take a research ethics
courses, and does not regularly use a style manual, but has one for occasional use. ,.Information
from the University also confirmed that the Subject, as a faculty member, was not required to
undergo responsible conduct of research training. 37

       Discussions with NSF officials confirmed that the annual report .
                                                                          did auto-populate
                                                                                        \
                                                                                            into
the document i,n which the Subject entered his final report text, although they said the Subject
could have reviewed and modified its content. Given the pending inquiry, the Subject might
have been expected to have more thoroughly reviewed any and all material the ES provided to
him

           To defme the standards of the research community with regard to material submitted as
part of a collaboration, we first reviewed the very style manual the Subject himselfsaid he
occasionally uses. In a section entitled "Guard against Inadvertent Plagiarism," the manual
states: "Whenever you submit a paper with your name on it, you implicitly promise that its
research, reasoning, and working are yours - unless you specifically attribute to someone
else. " 38 · The "Supplementary Guidelines on Responsibilities of Coauthors and Collaborators" of
the societr 9 in whose journals the Subject frequently publishes, 40 similarly states:

 31
      Tab 9.
 32
 33
     Tab 10 contains the Final Report, submitted                     and the sources.
 34
     Tab 11.
  35
·    Tab 12, pg 2.
  36
     Tab 12, Attachments.




 39·······
  37
     Tab 13, pg 1.
  38
     Turabian, et al. A Manual for Writers of Research Papers, Theses, and Dissertations, Eighth Edition. 2013: 81.



                                                          6
SENSITIVE                                                                                  SENSITIVE


                    All collaborators share some degree of responsibility for any paper
                    they coauthor. ...

                    While not all coauthors may be familiar with all aspects of the
                    research presented in their paper, all collaborations should have in
                    place an appropriate process for reviewing and ensuring the
                   .accuracy and validity of the reported results, and all coauthors
                    should be aware of this process ....

                    Any individual unwilling or unable to accept appropriate
                    responsibility for a paper should not be a coauthor. 41

Lastly, the style guide for another society42 in which the Subject is involved states "It is the
responsibility of each author to ensure the quality and integrity of the research that is
reported." 43 Accordingly, we determined, the Subject violated accepted practices of his relevant
research community by submitting, under his own name, material provided to him by a foreign
collaborator, with whom he was unfamiliar personally or professionally, without adequate
review.


                                            OIG's Assessment

       A fmding of research misconduct by NSF requires (1) there be a significant departure
from accepted practices of the relevant research community, (2)' the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a
                                44                                                          .
preponderance of the evidence.

                                                 The Acts

        The Subject submitted, as PI, an NSF Proposal containing extensive plagiarism - 154
lines and 40 embedded references, plagiarized from seven sources. Although the evidence
indicates the Subject himself authored only one section of the Proposal, he .submitted a
document provided to him by a non-native English speaking colleague whom he admittedly did
not know professionally or personally, without performing any due diligence of reasonably
reviewing the document. He did this despite receiving emails from the colleague containing
numerous grammatical/spelling errors which should have raised hisawareness of the
colleague's weak command of the language. As a result, the Proposal, which was almost
entirely plagiarized, received funding. As explained above, we conclude the act constitutes a
significant departure from accepted practices within his research community.




44
     45 C.F.R. §689.2(c).


                                                    7
SENSITIVE                                                                                SENSITIVE



                                                Intent

       The Subject acted particularly reckless in submitting, under his own name, material
authored by an ES who was previously unknown to him, without adequately reviewing the
materials provided.

                                           Standard o(Proo(

      OIG concludes that the Subject's actions and intent were proven based on a
preponderance of the evidence.

        OIG concludes that the Subject, by a preponderance of the evidence, recklessly
                                                                45
plagiariz.ed, thereby committing an act of research misconduct.


                                  OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it
             was an isolated event or part of a pattern; (4) Whether it had a
             significant impact on the research record, research subjects, other
             researchers, institutions or the public welfare; and (5) Other
             relevant circumstances. 46

                                              Seriousness

        The Subject's actions are particularly serious. The Proposal the Subject submitted,
which was nearly entirely plagiarized and therefore misrepresented his own body of knowledge,
received funding. The PD clearly stated she would not have fundedthe Proposal were .she aware
of the plagiarism, meaning her funding of this Proposal caused others 1Who presented their own
original ideas in their own words to not receive funding. Additionally, the Proposal was in clear
violation of the program announcement requirements, in that it contained plagiarism and was
not a product of true collaboration between colleagues.

                                                Pattern

           We did not identify a pattern of plagiarism.


                                           Recommendation

Based on the evidence, OIG recommends NSF:

45
     45 C.F.R. part 689.
46
     45 C.F.R. § 689.3(b).


                                                    8
SENSITIVE                                                                                                                                                                                                                SENSITIVE




          •   Send the Subject a letter of reprimand notifying him that NSF has made a finding of
              research misconduct. 47                                                      ·    _

          •   Require the Subject to certify to the Assistant Inspector General for Investigations
              (AlGI) his completion of a responsible conduct of research training program and
              provide documentation of the program's content within 1 year of NSF's finding. 48
              The instruction should be in an interactive format (e.g., an instructor-led course) and
              specifically include information related to collaborations.

For a period of 1 year as of the date ofNSF's finding:
       • Require for each document (proposal, report, etc.) to which the Subject contributes
              4=:~-= 'r.:.., ... J.,.,._..,_~_...,,...~_....... ~   +--- l\.1 c   "C' / ....:l~ ...~.-.. ....,.~1..,o- _...,. .... _ 4-1.... =_-_.,..,.,......:J.,. 1.... .;"" ..;~...,.,...,+.;;h.,+,'; ___ .,._..,_\
              .l.V.l.     C>U.UJ..UJ_i:)i:)J..V~l                   I..U   J..~LJ.l.- \U.llV\..>UJ V.l l-lllVUt:;lllll~ l.lJ.~H\..UUV1.lJ,

                           o            the Subject to submit a contemporaneous certification to the AlGI that the
                                        document does not contain plagiarism, falsification, or fabrication. 49
                           o            the Subject to submit contemporaneous assurances from a responsible
                                        official of his employer to the AlGI that the document does not contain
                                        plagiarism, falsification, or fabrication. 50


                                                   Subject's Response to Draft Investigation Report

         We provided the Subject with a copy of our draft report and attachments for comment. 5 1
The Subject submitted a response 52 in which he argued that our report "contains a confusion of
two separate issues: the accusation of my authoring plagiarism, which has been resolved by the
University's assessment that OIG agreed with, and the assessment on the reckless act of
submitting a proposal without thorough review." 53 He said he wished the report more clearly·
indicated that he himself "did not author any plagiarized texts, but submitted an NSF proposal
containing texts copied by a foreign colleague." 54 While we agree that the Subject was not the
author ofthe,plagiarized text, he did submit, as a collaborative proposal, a document almost
entirely written by the ES and did so despite emails from the ESwhich displayed a lack of
command of the English language. The stated goals of the U.S.-Egypt Program
                55
Announcement indicate that submitted proposals should be a product of joint collaboration
between the U.S. and the non-U.S. scientists, rather than simply the work of the non-U.S.
collaborator. The Subject's very submission under this Announcement is in itself an act of
"appropriation of another person's ideas, processes, results or words without giving appropriate
credit," thus constituting plagiarism. 56           _                _



47
   A Group I action 45 C.F.R. 689.3(a)(l)(i).
48
   This action is similar to Group I actions 45 C.F.R. 689.3(a)(l).
49
50
                                          to
   This action is similar 45 C.F.R. 689.3(a)(l)(iii).
   A Group I action 45 C.F.R. 689.3(a)(l)(iii).
51
   Tab 14.
52
   Tab 15.
53
   Tab 15, pg 2.
54
   Tab 15, pg 2.
55
   See footnote 20 herein.
56
   45 C.F.R. 689.1(a)(3).


                                                                                                                                     9
SENSITIVE                                                                                SENSITIVE


       The Subject raised one other issue we will herein address. He argued that Source 5, the
only copied material identified in the portion he himself authored, should be removed from the
analysis and the total line counts changed accordingly. While we acknowledge the inclusion of
Source 5 material, which does include a form of citation and reference, is less egregious than
the other portions of plagiarized material, we maintain that the Subject did not clearly demarcate
the verbatim Source 5 text from text he himself authored. Ensuring adequate citation of
verbatim text requires the material to include quotations, citations, and reference; the absence of
even one of those three elements constitutes inadequate citation.

         Accordingly, the Subject's response did not provi4e adequate reason for OIG to change
its original determinations and recommendations.




                                                 10
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




                                                                            FEB Z5 2014
     OFFICE OF THE
      DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:     Notice of Research Misconduct Determination


Dear Dr.~

You served as Principal
Foundation
                                                                     As documented in the
attached Investigative Report prepared by NSF's Office oflnspector General (OIG), this
proposal contained plagiarized material.

Research Misconduct and Proposed Sanctions

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing orperforming research funded by NSF ... " 45 CFR 689.l(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 689.1(a)(3). A finding of research misconduct ·
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community;
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
           and
       (3) The allegation be proven by a preponderance of evidence.
                                                                                                                                                                            Page2
45 CFR 689.2(c).

Your proposal to NSF contained substantial copied material: 154 lines and 40 embedded
references copied from seven sources. While you maintained that the copied material was
included by your non-US collaborator, you, as PI, should have reviewed the proposal bearing
your name before submitting it, and should have known, as an expert in the field of study, that
the material was copied. 1                                                                 ·


Your submission of a proposal with substantial copied material constitutes plagiarism and meets
the applicable definition of"research misconduct" set forth in NSF's regulations. Pursuant to
NSF's regulations, the Foundation must also determine whether to make a finding of misconduct
based on a preponderance of the evidence. 45 CFR 689.2(c). After reviewing the Investigative
Tl-~--~-L    ::~ ~------4-_: ___ ._._L--~ +L._-_ 0.T0'.--. ___ ___,__-_1-_._..__:_..._ ----C'~-------~ ---+L.--~-----~--------.1 1t..TC1!.' L_-____ .-1-~L~_:: __ _.I -LL_-L L ___ _l
L'..C:}'Ull, ill }'dllll.-Ul<ll LHC: VJ.U ;:, <llldlJ::>l::> Ul JUUl ULHC:l }'lU}'U;:,a.J., l''h.)!' ua;:, Ul:;ll:;lllllHC:U ll!Ul, Utt;:,I:;U

on a preponderance of the evidence, this plagiarism resulted from your recklessness and
constituted a significant departure from accepted practices of the relevant research community. I
am, consequently, issuing a finding of research misconduct against you.

NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
response to a finding of misconduct. 45 CFR 689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR 689.3(a)(l). Group II actions
include award suspension or restrictions on designated activities or expenditures; requiring
special reviews of requests for funding; and requiring correction to the research record. 45 CFR
689.3(a)(2). Group III actions include suspension or termination of awards; prohibitions on
participation as NSF reviewers, advisors or consultants; and debarment or suspension from
participation in NSF programs. 45 CFR 689.3(a)(3).

In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct and the determination that it was the result of recklessness. I
have also considered other relevant circumstances. 45 CFR 689.3(b).

After assessing the relevant facts and circumstances of this case and NSF's regulations, I am
taking the following actions:

       •     Within one year of the date of this notice,_ you must complete a responsible conduct of
             research training program, for which the instruction should be an interactive format (e.g.,
             an instructor-led course) and which specifically includes plagiarism. You must provide ..
             documentation of the program's content and proof of its completion to the OIG; and

1
  NSF's Program Announcement (PA) explicitly stated that proposals "should be jointly developed by interested
experts of both countries and reflect a true intellectual collaboration." The PA also contained an express warning to
avoid submitting plagiarized material.
                                                                                            Page 3

   •   For a period of one year from the date of this notice, you are required to submit
       certifications to the OIG that any proposal or report you submit to NSF as a Principal
       Investigator (PI) or co-PI does not contain plagiarized, falsified or fabricated material.
   •   For a period of one year from the date of this notice, you are required to submit
       assurances to the OIG from a responsible official of your employer that any proposal or
       report you submit to NSF as a Principal Investigator (PI) or co-PI does not contain
       plagiarized, falsified or fabricated material.

All certifications and assurances should be submitted in writing to NSF's Office of Inspector
General, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia, 22230.


Procedures Governing Appeals

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
finding, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
decision on the finding of research misconduct will become final.

For your information, we are attaching a copy of the
any questions about the foregoing, please                                                   at
(703) 292-8060 ..



                                                       Si1,1cerely,

                                                 --=:::?_;;bt/:/to-z?·;rv~~
                                                       Fae Korsmo
                                                       Senior Advisor to the Director



Enclosures:
Investigative Report
45 CFR Part 689
